HHS/OIG, Audit -"Review of Medicare Accounts Receivable Reported by the Centers of Medicare and Medicaid Services' Region VI Regional Office,"(A-06-02-00035)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Accounts Receivable Reported by the Centers of Medicare
and Medicaid Services' Region VI Regional Office," (A-06-02-00035)
May 2, 2003
Complete Text
of Report is available in PDF format (1.21 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether the Centers for Medicare
and Medicaid Services (CMS) Region VI Regional Office (1) accurately reported
and properly supported its accounts receivable balances including a “settlement
cleanup” project involving certain Medicare Secondary Payer (MSP) accounts
receivable for the quarter ended September 30, 2000, and (2) complied with
the Debt Collection Improvement Act of 1996 and CMS policies related to collection
efforts.  The lack of adequate, or in some instances, any reconciliation
and internal control procedures prevented the Regional Office from (1) accurately
reporting its accounts receivable and the MSP “settlement cleanup” amount
and (2) timely referring delinquent accounts receivable to the Treasury.  Before
the completion of our fieldwork, the Regional Office developed and implemented
policies and procedures that addressed the concerns identified during our fieldwork.
In addition, subsequent to the completion of our fieldwork, CMS issued instructions
for the Regional Office to transfer the administration of Medicare accounts
receivable debt to the originating contractors.  As a result, our only
recommendation was for the Regional Office to continue to process and report
Medicare accounts receivable in accordance with its current policies and procedures
through its final reporting period of September 30, 2003.  The Regional
Office fully concurred with our findings and recommendation.